                 Digital Currency:
         Opportunities for the Postal Service




                             October 3, 2011




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-12-001
U.S. Postal Service Office of Inspector General                                                     October 3, 2011
Digital Currency: Opportunities for the Postal Service                                             RARC-WP-12-001



       Digital Currency: Opportunities for the Postal Service


                                          Executive Summary

Digital technologies, e-commerce, and financial innovation have revolutionized the way
individuals, businesses, and institutions conduct their financial transactions. Cash is
losing its primacy as the most widely used payment method, now increasingly displaced
by “digital currency” — a set of innovative, more practical, and convenient tools to store
and transfer money electronically, including electronic fund transfers, Internet payments,
payment cards (credit, debit, and prepaid), and mobile payments.

Despite clear benefits, the digital economy is not without shortcomings. Most electronic
payment tools require users to have a bank account or credit card. This means that
people without access to mainstream banking services are likely to be excluded from
the benefits of digital currency. These unbanked and underbanked individuals1 — low-
income families, new immigrants, the unemployed, and the non-creditworthy — typically
do not have many payment options other than cash and checks. Because they lack
bank accounts, they turn to high-fee alternative financial providers to pay bills, transfer
money, or cash checks. Further, some individuals are starting to be paid with digital
currency and face predatory fees when exchanging these payments.

In its paper The Postal Service Role in the Digital Age Part 2: Expanding the Digital
Platform,2 the U.S. Postal Service Office of Inspector General (OIG) Risk Analysis
Research Center (RARC) mentioned the “insufficient availability of affordable digital
currency for unbanked consumers” among the challenges characterizing the digital
marketplace. It also suggested that opportunities might exist for the Postal Service to
address this challenge by expanding its role as a provider of electronic currency
transactions to underserved markets in the form of prepaid cards.

This paper expands the analysis of the electronic payment landscape by evaluating the
opportunity for the Postal Service to expand its offering of money transfer services with
prepaid cards. The paper presents the following highlights:

      Prevailing trends reveal a clear shift toward electronic payments. While debit and
       credit cards are the most used non-cash payment tools, prepaid cards are the
       fastest growing both in terms of volume and transaction value.




1
  “Unbanked” refers to individuals or households without a checking or savings account. “Underbanked” refers to
individuals or households who have a checking or savings account but rely on alternative financial services.
2
  U.S. Postal Service Office of Inspector General, The Postal Service Role in the Digital Age Part 2: Expanding the
Digital Platform, Report No. RARC-WP-11-003, April 19, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-11-
003.pdf.


                                                          i
U.S. Postal Service Office of Inspector General                                October 3, 2011
Digital Currency: Opportunities for the Postal Service                        RARC-WP-12-001


      While the use of prepaid cards is spreading rapidly, the prepaid card market has
       limitations in both reach and accessibility. For this reason, the need for affordable
       access to digital currency remains largely unfulfilled.

      These gaps together with the booming demand for prepaid cards represent an
       opportunity for the Postal Service. Given its widespread network, trustworthy
       reputation, and longstanding experience in providing payment services, the Postal
       Service could expand its money transfer services by offering prepaid cards to
       bridge the gaps that cannot be easily filled by the private sector and ensure that
       unbanked people are not left behind in an increasingly digital economy.

      Promoting the financial inclusion of the unbanked and underbanked population
       could be an important part of the traditional Postal Service’s mission of “binding
       the nation together.” Embracing new payment technologies to adapt its products
       and services to the changing needs of these customers would be the natural
       evolution of its role.

      Prepaid cards might be classified as a postal service and authorized under the
       current postal law if provided as a complement and an extension of existing
       money transfer services or if offered to federal agencies to facilitate the payment
       of social benefits to unbanked citizens.

      Integrating the functionality of a prepaid card into the existing money transfer
       process would allow the Postal Service to develop new, innovative wire transfer
       options and leverage the latest mobile and electronic payment technologies.

      Some foreign posts have already launched prepaid card services successfully.
       For example, the Italian Post is the leader in the Italian prepaid card market. Its
       low-cost prepaid card services generated revenues of $124 million in 2010, or
       about 2 percent of total revenues from financial services.

This paper also recommends the foundation of an implementation strategy. One critical
element of implementation is for the Postal Service to partner with one or more leading
providers in the money transfer and payment card market and capitalize on their “know-
how,” technology infrastructure, and network. A second element is to start with the offer
of prepaid card-based money transfer services to the unbanked and the federal
government. A third element is to minimize cost and maximize the efficiency of post
office window operations. This will allow the Postal Service to offer prepaid card
services at affordable, competitive prices. A fourth element is to promote large-scale,
multilingual promotional campaigns and provide informational material and customer
assistance at post offices. At the same time, the Postal Service could create new or
expand existing service access channels, such as kiosk stations and the USPS.com
website. A final element is to integrate the prepaid card payment functionality into any
future digital platform that secures electronic communications and transactions.




                                                         ii
U.S. Postal Service Office of Inspector General                                                                  October 3, 2011
Digital Currency: Opportunities for the Postal Service                                                          RARC-WP-12-001



                                                 Table of Contents
Introduction ..................................................................................................................... 1 
          The Changing World of Payments: The Shift to Digital Currency ......................... 1 

Digital Currency: Definition and Trends ........................................................................... 2 
          Definition .............................................................................................................. 2 
          Trends .................................................................................................................. 4 

The Fastest Growing Digital Currency: Prepaid Cards .................................................... 6 
          Types and Features .............................................................................................. 6 
          Growth Factors ..................................................................................................... 8 
          Marketplace .......................................................................................................... 9 
          Shortcomings...................................................................................................... 11 

Opportunities for the U.S. Postal Service ...................................................................... 12 
          Expanding and Innovating the Postal Service Money Transfer
          Services Portfolio with Prepaid Cards ................................................................ 12 
          Alignment with the Current Postal Service Mission and Role ............................. 13 
          Social Benefits .................................................................................................... 14 
          Core Competencies and Assets ......................................................................... 15 
          Possibilities under the Current Postal Regulation ............................................... 16 

Implementation Strategy ............................................................................................... 17 
          The Features of the Future Postal Prepaid Card ................................................ 18 
          New Card-based Money Transfer Services ........................................................ 19 
          An International Outlook: The Experience of Poste Italiane ............................... 23 

Opportunities to Integrate Payments in the Future Postal Digital
Platform ......................................................................................................................... 24 

Conclusion .................................................................................................................... 25 
           




                                                                 iii
U.S. Postal Service Office of Inspector General                                                             October 3, 2011
Digital Currency: Opportunities for the Postal Service                                                     RARC-WP-12-001


                                                       Tables

Table 1             Volumes of Noncash Payments, 2006-2009.......................................... 4 

Table 2             Differences between Prepaid Card Categories...................................... 7 

Table 3             Prepaid Card Market: Growth Factors ................................................... 9 


                                                       Figures

Figure 1            Primary Differences between Prepaid, Debit and Credit Cards ............. 3 

Figure 2            Compound Annual Growth Rates of Noncash Payments, 2006-
                    2009 ...................................................................................................... 4 

Figure 3            Prepaid Card Industry Supply Chain ................................................... 11 

Figure 4            The Guiding Principles ........................................................................ 13 

Figure 5            The Evolution of the Postal Service's Role in Serving the
                    Underbanked ....................................................................................... 14 

Figure 6            Task Sharing in the Postal Prepaid Card Supply Chain and
                    Cardholder Benefits ............................................................................. 19 

Figure 7            The Postal “Dual-Card” Working Model ............................................... 20 

Figure 8            A Collaboration Model between the Postal Service and the U.S.
                    Treasury .............................................................................................. 23 


                                             Appendices

Appendix A          Major Players in the Prepaid Card and Money Transfer Market .......... 27 

Appendix B          Regulatory Issues and Options for the Postal Service to Offer
                    Prepaid Card-Based Money Transfers Under Current Postal
                    Regulation ........................................................................................... 28 

Appendix C          The Existing Postal Service Payment Product and Service
                    Offering ................................................................................................ 31 

Appendix D          The Postal Service Past and Recent Experience with Prepaid
                    Cards ................................................................................................... 33 


                                                             iv
U.S. Postal Service Office of Inspector General                              October 3, 2011
Digital Currency: Opportunities for the Postal Service                      RARC-WP-12-001




       Digital Currency: Opportunities for the Postal Service


Introduction

The Changing World of Payments: The Shift to Digital Currency

Digital technologies and e-commerce have completely revolutionized the way
individuals, businesses, and institutions conduct their financial
transactions. Cash is losing its primacy as the most widely       Cash is losing its
used payment method, now increasingly displaced by “digital       primacy…and is
currency” — a set of innovative tools to store and transfer       increasingly displaced
money electronically, including electronic fund transfers,        by “digital currency.”
Internet payments, payment cards (credit, debit, and prepaid),
and mobile payments.

The increased efficiency and lower costs characterizing digital currency have made it an
attractive option for both providers and customers. As a result, the electronic payment
market is rapidly expanding. New non-bank intermediaries have entered the market,
attracted by its high growth potential and relatively low barriers to entry. Businesses and
governments are looking to move their transactions to the digital channel to save on
processing costs. Consumers see digital currency as more practical, potentially safer,
and less expensive than cash or checks, while providing an indisputable proof of
transaction.

Yet despite the rise of digital currency and its benefits, there are downsides. The most
significant shortcoming is that most of the electronic payment channels still require a
                                  bank account or payment card. This means that people
  People without access to        without access to mainstream banking services are likely
  mainstream banking
                                  to be excluded from the benefits of digital currency.
  services are likely to be
  excluded from the benefits      These “unbanked” — low-income families, new
  of digital currency.            immigrants, unemployed, non-creditworthy individuals —
                                  typically do not have many payment options other than
cash and checks and, because they do not have bank accounts, turn to high-fee
alternative financial providers to pay bills, transfer money or cash checks.

Recently, a new category of digital currency products tailored to the needs of the
unbanked has appeared on the market. These products include prepaid cards and
mobile wallets and do not require a bank account. Despite consumers’ rapid adoption of
digital currency products, a series of gaps and shortcomings affect this market and its
industry. For this reason, the need for affordable access to digital currency remains
largely unfulfilled and presents an area of opportunity.



                                                         1
U.S. Postal Service Office of Inspector General                                                       October 3, 2011
Digital Currency: Opportunities for the Postal Service                                               RARC-WP-12-001


Digital Currency: Definition and Trends

Definition

Digital currency refers to any exchange of money that takes place electronically through
a secured network. There are four primary types of electronic money instruments:
electronic fund transfers, payment cards, Internet payments, and mobile payments.3
These instruments are innovative in that they provide new ways to access money,
including through the Internet and mobile devices. However, their users still need a
bank account or a payment card, enabling traditional bank and credit card networks to
settle the payments.

Electronic Fund Transfers
Electronic fund transfers include any transfers of money between two bank accounts
initiated through an electronic terminal such as a computer; a credit, debit, or prepaid
card; an automated teller machine (ATM); a point-of-sale (POS) device; or a
smartphone. In these cases, the intermediaries are banks or other financial institutions
where the sender and the receiver hold an account. People who do not have a bank
account generally send and receive money through a variety of alternative providers,
such as Western Union®, Money Gram®, or the Postal Service, whose products allow
customers to conduct transfers in cash.

Payment Cards
Payment cards are classified as credit, debit, or prepaid, depending on the level of
restrictions and benefits granted to the holder by the card issuer. 4 When a payment is
made using a payment card, the transfer of money takes place through a payment
network such as Visa, MasterCard, American Express, Diners Club, or Discover.

All three card types allow holders to make purchases in stores or online and to withdraw
cash at an ATM. Credit and debit cards are tied to a bank account and provide more
flexibility in terms of spendable amounts, though many require a positive credit history.
Prepaid cards, in contrast, do not require a bank account or a positive credit record, but
must be preloaded with funds before use. Figure 1 highlights the primary differences
between credit, debit, and prepaid cards.




3
  E-money, electronic cash, electronic currency, digital money, digital cash, digital currency and cyber currency are
other terms used to express the same concept.
4
  Payment cards can be magnetic stripe, chip-based (with contact or contactless), or both. Cards with contactless
chips don’t require a PIN; users pay by waving their card in front of a contactless terminal.


                                                           2
U.S. Postal Service Office of Inspector General                                                   October 3, 2011
Digital Currency: Opportunities for the Postal Service                                           RARC-WP-12-001

                Figure 1: Primary Differences between Prepaid, Debit and Credit Cards




            PREPAID CARD                           DEBIT CARD                          CREDIT CARD
             (Pay BEFORE)                           (Pay NOW)                           (Pay LATER)

           Credit history    No                Credit history    Yes                Credit history   Yes
           Bank account      No                Bank account      Yes               Bank account      Yes
           Credit granting   No                Credit granting   No                Credit granting   Yes




Source: OIG Analysis.



Internet Payments
Internet payments encompass a group of new online payment solutions aimed at
increasing the simplicity and security of e-commerce. Consumers must still conduct
these transactions with a payment card (typically, credit or debit) tied to a bank account,
but the payer’s financial information (owner’s name, card number, type of card, and
expiration date) is communicated to the vendor in an encrypted form to protect the
payer from identity theft.

The typical example of Internet payment is the e-wallet. This is an encrypted data
storage system where users save their payment card or bank account and shipping
information. When they buy from an e-retailer offering this payment option, their saved
information is automatically retrieved from the e-wallet and used to complete the
transaction without being disclosed to the merchant. Providers of e-wallet solutions
include PayPal®, Google Checkout®, Click2Pay®, and many others.

Mobile Payments
Mobile payments are transfers of money made through an application downloaded on a
mobile device, via text messaging, or through a chip for contactless payments installed
in the phone.5 Similar to Internet payments, mobile transactions are typically performed
via payment card or bank account. Also like Internet payments, mobile payments use
electronic wallet technologies that store payment card or bank details in the database of
the provider, which releases them in an encrypted mode at the time of the payment.




5
 Mobile payments should not be confused with mobile banking, which is the option to access and perform bank
account transactions using a mobile device.


                                                         3
U.S. Postal Service Office of Inspector General                                                     October 3, 2011
Digital Currency: Opportunities for the Postal Service                                             RARC-WP-12-001


Trends

Fueled by new technologies, financial innovation, and changing consumer behavior,
there is a clear shift to electronic payments in the United
                                                               In 2009, three-quarters
States.6 In 2009, the estimated volume of noncash payments
                                                               of 108.9 billion
was 108.9 billion transactions. Three-quarters of those        noncash payments
noncash payments were made electronically, while checks        were electronic.
represented less than a quarter, as shown in Table 1.

                            Table 1: Volumes of Noncash Payments, 2006-2009
                       Volumes of Noncash Payments (billions)              2006         2009


                       Checks                                               30.5         24.4

                       Electronic fund transfer (ACH)                       14.6         19.1

                       Credit card                                          21.7         21.6

                       Debit card                                           25.0         37.9

                       Prepaid card                                          3.3          6.0

                       Total                                                95.2        108.9

                     Source: 2010 Federal Reserve Payments Study — Noncash Payment
                             Trends in the United States: 2006–2009.




            Figure 2: Compound Annual Growth Rates of Noncash Payments, 2006-2009

                                       Fund       Credit       Debit   Prepaid
                          Checks      Transfer     card        card     card         Total
                                                                         21.5%

                                                               14.8%

                                       9.3%
                                                                                     4.6%



                                                  -0.2%

                           -7.2%

Source: 2010 Federal Reserve Payments Study — Noncash Payment Trends in the United States: 2006–2009.




6
 Several other factors, such as growth in economic activity and population, have also contributed to the increase in
electronic payments.


                                                           4
U.S. Postal Service Office of Inspector General                                                   October 3, 2011
Digital Currency: Opportunities for the Postal Service                                           RARC-WP-12-001


Key trends in the use of noncash payments between 2006 and 2009 reveal the clear
shift toward electronic payments:

       The use of debit cards grew almost 52 percent and, by 2009, they were the most
        widely used noncash instrument.

       The volume of credit card transactions declined slightly for the first time ever due
        to recession, though they still represented nearly 22 percent of the noncash
        payment volume in 2009.

       Although prepaid cards had the lowest transaction volume of all noncash
                                 payments, they increased at the fastest rate — in
        Prepaid cards increased terms of both volume (see Figure 2) and transaction
        at the fastest rate in   value — reaching a total volume of 6 billion
        terms of both volume     transactions and an estimated value of $120.2 billion
        and transaction value.   in 2009.7 Analysts expect the growth of prepaid card
                                 use to continue, reaching $440 billion by 2017.8

       The adoption of Internet payment services offered by non-bank providers such as
        PayPal and Google Checkout has also grown quickly. In 2009, about 30 percent
        of banked consumers had set up an account with an online payment services
        provider.9

       Domestic and international electronic fund transfers grew steadily by 9.3 and
        9.7 percent, respectively.10

       Demand for paper money orders declined, caused largely by electronic
        substitution.

       User adoption of mobile payments is still limited. In 2009, less than 2 percent of
        U.S. consumers used their phone to make a payment online or at a point-of-sale
        terminal and the value of mobile payment transactions was $5.2 billion. This
        value is expected to grow annually by 49 percent and reach $56.7 billion by
        2015.11 The underbanked population, in particular, has a high propensity to
        engage in mobile transactions and represents a viable, growing target for mobile
        payment service providers.

Despite the increasing adoption of electronic payment tools and channels, the use of
cash is still widespread. A number of barriers including the digital divide, financial
7
  The value of prepaid transactions increased by 22.9 percent per year. See 2010 Federal Reserve
Payments Study — Noncash Payment Trends in the United States: 2006-2009, pp. 5-6.
8
  The Boston Consulting Group, The Prepaid Market Sizing Report, 2010.
9
  “Banked” refers to individuals or households who have checking or savings accounts at a bank and do not rely on
alternative financial services.
10
   In the United States, which has the highest immigration rate in the world, international remittances totaled
$48.3 billion in 2009. See World Bank, Migration and Remittances Factbook, 2011.
11
   MarketsandMarkets, Mobile Payment - Advanced Technologies (NFC), Strategies And Future Of Remote &
Proximity Payment In U.S, August 9, 2010.


                                                         5
U.S. Postal Service Office of Inspector General                                                       October 3, 2011
Digital Currency: Opportunities for the Postal Service                                               RARC-WP-12-001


exclusion, lack of knowledge, and cultural factors still preclude a significant number of
people from realizing the benefits provided by digital currency. Any further increases in
user adoption of digital currency will largely depend on the ability of the industry to
overcome these barriers.


The Fastest Growing Digital Currency: Prepaid Cards
Prepaid cards are the fastest growing product in the digital      Millions of the unbanked
currency market. Millions of unbanked and underbanked             and underbanked are
consumers are adopting these cards as an electronic payment adopting prepaid cards as
instrument and a substitute for cash. This is largely due to the  a substitute for cash.
fact that prepaid cards do not require holders to have a
checking account or a credit history, and can be considerably less expensive than a
regular bank account in terms of fees.

The rise of user adoption has driven a number of new providers into the market. High
fixed costs and low margins characterize the prepaid card industry as prepaid card
revenues, deriving from card fees, are distributed across the value chain. For this
reason, providers need scale and volume to drive profitability.12

Types and Features

There are three major categories of prepaid cards. Each enables different types of
transactions and stores money electronically in different ways.

Stored Value Cards

The cash balance is stored directly on the card. The card remains anonymous, meaning
that it is not issued in the name of a specific cardholder.13 Its use is generally limited to
the purchase of the goods and services of a specific merchant. These cards cannot be
redeemed for cash, but they can be freely reloaded with funds. Examples of stored
value cards include transit system fare cards, telephone prepaid cards, and Starbucks
cards.

Reloadable Prepaid Cards

The cash balance is stored remotely in the database of the issuer, and the card is
issued in the name of the cardholder. The prepaid card is freely reloadable with cash. It
is “open loop” when endorsed by an electronic payment network such as Visa or


12
   Fees can be applied to card acquisition, activation, point-of-sale (POS) or online transactions, cash withdrawal at
an ATM, cash reloading, card balance inquiry, cancellation, and foreign currency conversion. Fees widely vary from
provider to provider. Feature-rich prepaid cards tend to be more expensive than basic ones, although competition,
regulation and technological innovation contribute to reduce their cost.
13
   The only way for anonymous cardholders to protect their balance in case their card is reported lost or stolen is to
register the card on the issuer’s website. Not all the issuers offer this option.


                                                           6
U.S. Postal Service Office of Inspector General                                                         October 3, 2011
Digital Currency: Opportunities for the Postal Service                                                 RARC-WP-12-001


MasterCard — meaning that it is usable for in-store or online payments everywhere the
network is accepted.

These cards are the most complete and versatile type, with a number of features that
make them a convenient form of payment:

             Fund Loading and Reloading: with cash, through direct deposit or electronic
              fund transfer.
             Payments: online and in stores everywhere the payment network associated
              with the card (e.g., Visa, MasterCard, or American Express) is accepted.
             Cash Redemption/Withdrawal: at any ATM in the world where the card
              payment network is accepted or at any store or location providing cash-back
              services.
             Money Transfers: from and to another card, cash, mobile device, or bank
              account.

Gift Cards

They combine some of the features of both stored value and reloadable prepaid cards.
Gift cards are anonymous cards typically used as an alternative to a monetary gift. The
donor prefunds the card with the desired amount, which the receiver can spend in store
or online. The gift card cannot be redeemed for cash or reloaded with cash. Once the
value is spent, the card is no longer usable. Gift cards may be endorsed by a major
payment network and used without restrictions (open loop) or limited to a specific
merchant (closed loop).14

Table 2 summarizes the main differences between the three prepaid card types
described above.
                             Table 2: Differences between Prepaid Card Categories
                               Features                       Stored         Reloadable         Gift Card
                                                            Value Card      Prepaid Card
              Balance stored on card or with issuer            Card            Issuer              Card
              Issued in cardholder’s name                          No              Yes              No
              Redeemable for cash                                  No              Yes              No
              Reloadable                                           Yes             Yes              No
              Open or closed loop                                Closed          Open              Both
              Use in store                                         Yes             Yes             Yes
              Use online                                           No              Yes             Yes
              Source: OIG Analysis.




14
  Open and closed loop gift cards are also available online in “virtual” format. Instead of a plastic card, the recipient
receives an email with a gift card number to be used for online or over the phone purchases.


                                                             7
U.S. Postal Service Office of Inspector General                                                    October 3, 2011
Digital Currency: Opportunities for the Postal Service                                            RARC-WP-12-001


Growth Factors

Several factors contribute to the growth of prepaid cards, as described below (see Table
3):

Easy Adoption by the Unbanked and Underbanked – Approximately 30 percent, or
40 million, of U.S. households are unbanked or underbanked — meaning they have no
access, or limited access, to primary financial services such as
bank accounts, credit cards, or debit cards.15 These households     About 40 million
are largely minority and low-income and are unable to afford or     U.S. households
                                                                    are unbanked or
do not qualify for traditional checking or savings accounts. These
                                                                    underbanked.
households rely on high-fee alternative financial service providers
for cashing checks, paying bills, or transferring money.16

Unbanked and underbanked individuals have become a target market for prepaid cards.
Like cash, general purpose prepaid cards are a convenient, easy-to-use, accessible
way to manage basic financial needs. Unlike cash, they allow users to engage in e-
commerce and other Internet-based financial transactions.

Teens and college students represent another emerging market for prepaid cards. The
recent Credit Card Act, which limits the ability of underage individuals to obtain credit
cards, is likely to increase the use of prepaid cards among young people and parents
wanting to manage their children’s finances and online purchases in a more controlled
and secure way.

Government Paperless Payment Policies – Federal, state, and local government entities
are engaging in “paperless” payment programs to reduce mailing and processing
costs.17 For example, beginning May 1, 2011, all new applicants for Social Security,
                               Veterans Affairs, or other federal benefits are required
 New applicants for and        to use an electronic payment method, including direct
 current recipients of federal
                               prepaid debit cards, to collect their benefits. People
 benefits will be required to
 use an electronic payment     currently receiving their federal benefits by paper check
 method to collect benefits.   must switch to an electronic payment method by
                               March 1, 2013.

Increasing Cost of Banking Services – Recent consumer protection policies introduced
in the debit and credit card markets have limited banks’ ability to charge customers with
interchange or overdraft fees. In order to recover this lost revenue, banks might
increase other service usage fees and eliminate free checking accounts, potentially

15
   Federal Deposit Insurance Corporation (FDIC), National Survey of Unbanked and Underbanked Households,
December 2009.
16
   In 2009, underbanked consumers spent $13 billion on non-bank financial service transactions according to the
Federal Deposit Insurance Corporation, National Survey of Unbanked and Underbanked Households, December
2009.
17
   According to the Government Accountability Office (GAO), “Treasury estimated that in fiscal year 2007, a check
payment cost the federal government $0.979 and an electronic payment cost $0.099.” U.S. Government
Accountability Office, Electronic Payments: Many Programs Electronically Disburse Federal Benefits, and More
Outreach Could Increase Use, Report No. GAO-08-645, June 23, 2008.


                                                         8
U.S. Postal Service Office of Inspector General                                 October 3, 2011
Digital Currency: Opportunities for the Postal Service                         RARC-WP-12-001


pushing more people out of the banking system. These consumers are likely to turn to
prepaid cards as a less expensive alternative to manage their basic payment needs.18

Payroll Prepaid Card Program – An increasing number of employers are adopting
prepaid cards to facilitate direct payroll deposits, especially for daily, temporary, or
immigrant workers without bank accounts.

Recession – The economic downturn and the financial crisis have likely contributed to
an expansion of the target market for prepaid cards, as consumers look for ways to
make payments without relying on credit and keep their spending under control.

Online Security – Prepaid cards are often used for online payments as the risk of theft is
limited to the amount available on the card. In addition, some providers protect users
against unauthorized purchases by refunding them the disputed amount (though many
credit and debit card providers do the same).

                                Table 3: Prepaid Card Market: Growth Factors




     Source: OIG Analysis.


Marketplace

Mainstream banks have generally overlooked the prepaid card market, mostly due to
profitability issues. Because prepaid cards are less profitable than checking accounts
and less widely used than credit or debit cards, banks have little incentive to add them
18
     Bretton Woods, Inc., Reloadable Prepaid Card Analysis, March 2011.


                                                          9
U.S. Postal Service Office of Inspector General                                                   October 3, 2011
Digital Currency: Opportunities for the Postal Service                                           RARC-WP-12-001


to their portfolio of products. Additionally, low-income consumers might use prepaid
cards as an alternative to traditional banking services. Finally, regulatory barriers
(compliance with the Patriot and Bank Secrecy Acts that require banks to apply high
identification standards) and fraud concerns have also prevented banks from quickly
moving to offer prepaid cards.

This absence of the nation’s largest financial institutions has created room for long-
established card issuers like Visa and MasterCard and for alternative providers such as
Green Dot, Net Spend, Account Now, Western Union, and Wal-Mart to enter and
dominate this marketplace. These players can rely on a widespread distribution and
cash reload network located in supermarkets and convenience stores across the
country.

In 2006, Wal-Mart, in partnership with Green Dot,
                                                                Wal-Mart sold two million
successfully started selling Wal-Mart-branded reloadable prepaid cards and collected
prepaid cards to low-income consumers through its 3,100 $2 billion in deposits through
stores in the United States, positioning itself as a low-cost its 3,100 stores.
prepaid card leader.19 Between 2006 and 2009, Wal-Mart
sold two million cards and collected $2 billion in deposits.20 In partnership with Money
Gram, Wal-Mart also offers money orders, money wires, and bill pay, which generated
$337.6 million in 2010.21
Money Gram, which is the second-largest player in the consumer-to-consumer market,
also sought partnerships with corporate entities as well as governmental entities (such
as Canada Post) to expand the reach of its products, many of which are available
                                through multiple channels — including physical retail
 An extensive electronic        locations and online. Western Union, the leader in the
 payment-processing network
                                consumer-to-consumer money transfer market, recently
 and a large, convenient retail
 footprint are key elements to partnered with Obopay, a company specializing in
 a partnership.                 mobile payments, to offer mobile-to-mobile money
                                transfers.22
These players often provide unique and specialized services in the prepaid card value
chain. This allows various players to partner with each other, rather than compete, to
extend their reach and lower their costs. A key element to establishing a partnership in
this market appears to be the convergence of an extensive electronic payment-
processing network and a large, convenient retail footprint. Figure 3 shows the role of
each player in the prepaid card value chain.




19
   Wal-Mart charges $3 for issuing and reloading the card, plus a $3 fixed monthly fee.
20
   Ann Zimmermann, “Wal-Mart Cuts User Fees for Its Prepaid Visa Debit Card,” Wall Street Journal, February 21,
2011, http://online.wsj.com/article/SB123496685897511383.html.
21
   Calculated as 29 percent of Money Gram total fee and investment revenue according to 2010 Money Gram
International Annual Report.
22
   A more detailed description of the products and services offered by the major players in the prepaid and money
transfer market is provided in Appendix A.


                                                         10
U.S. Postal Service Office of Inspector General                                                  October 3, 2011
Digital Currency: Opportunities for the Postal Service                                          RARC-WP-12-001

                                 Figure 3: Prepaid Card Industry Supply Chain

                                         PAYMENT NETWORKS
               Visa ®                                                         MasterCard ®


             CARD ISSUER             FULFILLMENT &              PROGRAM                DISTRIBUTOR/
                MetaBank             TRANSACTION                MANAGER                 MARKETER
            The Bankcorp, Inc.        PROCESSOR                 Account Now               Walmart
               GE Money                    FIS                   GreenDot               Western Union
                                        First Data               NetSpend                Walgreens
                                          MT&L                   RushCard                 Univision
                                      FSV Payment                                      CVS/Pharmacy
                                        Systems


                                        LOADING NETWORKS
           GreenDot     Western Union   MoneyGram  Visa ReadyLink      MasterCard Repower


Source: Center for Financial Service Innovation, The Non-Profit’s Guide to Prepaid Cards, September 2010.


Shortcomings

While the consumer demand for prepaid card is growing rapidly, there are shortcomings
among current players and their offerings that leave the need for affordable and
convenient prepaid card services still unfulfilled. Among those shortcomings:

   The number of prepaid cards currently issued by all the major providers (about
    10 million cards) covers just a fraction of the total underserved market of about
    73 million individuals (40 million households).

   The geographical distribution of banks and prepaid card acquisition and reload
    locations reflects business strategies for profitability rather than principles of
    universal service access. As a result, rural and remote areas do not have adequate
    coverage.

   The cost of prepaid card services offered by certain providers, although still lower
    than a bank account, is not always affordable, especially for very low-income
    households. Wal-Mart is the only provider offering truly low-cost prepaid card
    options.

   A lack of consumer awareness and education is one of the major barriers to prepaid
    card growth. Prepaid cards distributed through pharmacies, groceries, and other
    retail stores are sold like any other item. Store personnel are generally not trained to
    provide customers with specific assistance or guidance on the prepaid cards.

   Informational material, such as multilanguage brochures explaining the service and
    the cost structure, is generally not available in these retail locations.

   Although the U.S. Treasury Department is promoting prepaid cards as a substitute
    for cash for citizens without a bank account, reaching out to this segment is not
    easy. About 30 percent of social benefit payments still have to be moved to the


                                                         11
U.S. Postal Service Office of Inspector General                               October 3, 2011
Digital Currency: Opportunities for the Postal Service                       RARC-WP-12-001


    electronic channel, while millions of citizens become eligible for social benefits every
    day.


Opportunities for the U.S. Postal Service

Expanding and Innovating the Postal Service Money Transfer Services Portfolio
with Prepaid Cards

The analysis of the electronic currency landscape shows that people without bank
accounts and debit or credit cards are largely excluded from the new digital economy.
Although a variety of providers have introduced prepaid cards as a tool to serve the
needs of the unbanked, the current supply market has shortcomings, both in terms of
reach and accessibility.

These shortcomings might represent opportunities for the Postal Service. Given its
widespread network, trustworthy reputation, and
                                                         The Postal Service’s network,
longstanding experience in providing payment services,
                                                         trustworthiness, and
the Postal Service is well positioned to expand its      experience address the market
offerings with prepaid cards to address the              shortcomings of reach and
shortcomings and cater to the unmet payment needs of access.
the financially underserved.

The following sections of the paper explain why pursuing this opportunity would be
appropriate for the Postal Service according to four strategic guiding principles,
identified in Figure 4 below:

       Alignment with the Postal Service mission and role;

       Benefit to society;

       Existing Postal Service competencies and assets; and

       Feasibility within current postal regulation.




                                                         12
U.S. Postal Service Office of Inspector General                                                           October 3, 2011
Digital Currency: Opportunities for the Postal Service                                                   RARC-WP-12-001

                                         Figure 4: The Guiding Principles




                                                                            •150 years of experience
                  •Trusted third-party role
                                                                            with currency transactions
                  •Universal access
                                                                            •Already established
                  •Fair pricing
                                                                            payment network
                  •Experience and quality
                                                                            •Postal website
                  •Customer outreach
                                                                            •Prepaid card specif ic know-
                  •Secure Government
                                                                            how
                  payments
                                                                   Core
                                               Social           Competencies
                                              Benefits           and Assets


                                      Why the Postal Service?
                                            Alignment
                                             with the            Possibilities
                                          Postal Service          under the
                                           Mission and          Current Postal
                                               Role              Regulation

                Promote f inancial                                               It might not require
                inclusion as a “provider                                         changes in regulation
                of last resort” ensuring
                nobody is “lef t behind” in
                an increasing digital
                economy


Source: OIG Analysis.


Alignment with the Current Postal Service Mission and Role

Promoting the financial inclusion of the unbanked and underbanked population could be
an important part of the Postal Service’s mission of “binding the nation together.” To
date, the Postal Service has fulfilled this mission through its physical infrastructure, by
transporting money across the country, and by providing universal access to cash
through its retail network.

In an environment that is increasingly dominated by the use of electronic money,
embracing new payment technologies and adapting its offerings to the changing needs
of these customers would be a natural evolution of the Postal Service’s role (see Figure
5). The Postal Service could position itself as a “provider of last resort,” helping bridge
the gaps that cannot be easily filled by the private sector and ensuring that unbanked
people are not left behind in an increasingly digital economy.




                                                           13
U.S. Postal Service Office of Inspector General                                                October 3, 2011
Digital Currency: Opportunities for the Postal Service                                        RARC-WP-12-001

          Figure 5: The Evolution of the Postal Service's Role in Serving the Underbanked




            The Evolution of the Postal Service’s Role in Serving the Underbanked Market


            Cash-Based Economy                                             Digital Economy


        Provide access to cash                                      Provide access to digital currency

                                                                    Electronic Money Transfers
        Physical transportation of money
                                                                    Card, mobile and Internet- based
        Cash-to-Cash payments                                       payments

                                                                    Multi-channel integrated access
        Physical access (retail network)
                                                                    (physical + web)


Source: OIG Analysis.


Social Benefits

As a “provider of last resort”, the Postal Service offers significant benefits to society:

    Trusted Intermediary – The Postal Service has long been a trusted third-party
     ensuring security and privacy to communications and transactions.23 In addition, low
     income individuals perceive post offices as a less intimidating and less formal
     environment than banks as well as more reliable and transparent than many
     alternative financial service providers. The use of prepaid cards could spread more
     quickly among the unbanked and underbanked if the provider is such a well-known,
     familiar, trustworthy government institution.

    Universal Access – The widespread postal retail network would expand the scope of
     the existing commercial prepaid card networks, enabling universal access to digital
     currency in rural areas where the presence of private sector providers may be
     limited. In addition, the Postal Service website, used by millions every day, would
     provide digital users with another secure channel to access prepaid card services.

    Fair and Affordable Pricing – The Postal Service could charge the lowest combined
     fees for prepaid card services and would keep the pricing clear and transparent to
     further reduce barriers to adoption for customers.

    Experience and Quality – Prepaid cards distributed through pharmacies, groceries,
     and other retail stores are generally sold like any other item. Store personnel are
     typically not trained to provide customers with specific assistance or guidance
23
  The Postal Service is considered the most trusted federal government agency. See Ponemon Institute, 2010
Privacy Trust Study of the United States Government, June 30, 2010.


                                                         14
U.S. Postal Service Office of Inspector General                                                   October 3, 2011
Digital Currency: Opportunities for the Postal Service                                           RARC-WP-12-001


     concerning the prepaid products. Postal clerks, already experienced in conducting
     financial transactions, would provide unbanked customers with a higher level of
     service and customer care.

    Large-scale Customer Outreach – Through targeted marketing campaigns and
     informational material at post offices and the USPS.com website, the Postal Service
     could create awareness about the benefits of prepaid cards and help bridge the
     knowledge gap that still inhibits the widespread use of this product among unbanked
     customers. The vast Postal Service customer base and the postal employees would
     represent by itself an enormous potential market for the new product.

    Secure Government Payment Services – The Postal Service could offer its identity
     validation competencies to the state and federal agencies that pay social benefits
     through prepaid cards to support their antifraud and identity theft policies.

Core Competencies and Assets

The Postal Service has 150 years of experience as a
                                                                            The Postal Service’s
trusted provider of affordable, reliable, and secure
                                                                            competencies and assets
payment services to the unbanked. Over the years, the                       allow it to move effectively
Postal Service has developed core competencies and                          into the prepaid card
assets around payment services that allow it to move                        market.
effectively into the prepaid card market.

Domestic postal money orders have been offered since 1864 as a safer alternative than
sending cash through the mail. Purchasable and redeemable at any post office, they
have typically been used for bill payments and person-to-person money transfers. The
trustworthiness of the Postal Service as a provider, the widespread service accessibility,
the accuracy of the payee identification process, and its efficient refund and
replacement policies in case of theft or damage made the Postal Service a leader in the
U.S. money order market.24

Internationally, the Postal Service offers paper money orders to 30 countries and
electronic wire transfers to 10 Latin American destinations. In 1997, the Postal Service
introduced the international wire transfer service, Dinero Seguro – Sure Money®, in
response to a need for a faster and more secure international wire transfer option.
Bancomer Transfer Service, a private sector company with a large network across Latin
America, manages the delivery of funds to the recipient in the destination country.25




24
   The Postal Service guarantees a 100 percent refund on a stolen money order upon the presentation of the receipt
together with the claim for refund. Defective money orders are replaced free of charge.
25
   See Appendix C for additional details on the existing Postal Service offering of payment products and services.


                                                         15
U.S. Postal Service Office of Inspector General                                                    October 3, 2011
Digital Currency: Opportunities for the Postal Service                                            RARC-WP-12-001


In the last 15 years, the Postal Service launched a number of initiatives in the field of
prepaid cards that allowed it to acquire experience and capabilities specific to this line of
products:

        It ran a Stored Value Card Program between 1996 and 2006. This program
         included the Liberty Cash Card and the First Class Phone Card. The Liberty Card
         was a reloadable closed loop prepaid card offered to postal customers to
         facilitate payment for postal products and services at postal outlets. The
         First-Class Phone Card was a prepaid phone card offered in partnership with
         AT&T.

        In April 2011, the Postal Regulatory Commission (PRC) authorized the Postal
         Service to market test for two years the sale of one-time-use, open loop prepaid
         gift cards cobranded with American Express through both its retail facilities and
         the Postal Service website.26 Although gift cards represent a first step into the
         prepaid card market, their limited features (they are neither reloadable nor
         redeemable for cash) make them more suitable as substitutes for a monetary gift
         rather than a tool to facilitate payments and transactions.27

In addition to that long history of providing payment services, the Postal Service can rely
on a robust infrastructure that is able to process millions of dollars in payments made by
customers via electronic fund transfers and debit cards every day. A Point-of-Sale
(POS) system to accept and process card-based payments is available in each post
office and enabled with card reload, cash-back, and card-based fund transfer
capabilities. The Postal Service website already allows users to purchase products and
services and pay online. The partnership with Bancomer Transfer Service and American
Express demonstrated that the postal payment system could be made interoperable
with the systems of partners and providers.

These core competencies and assets position the Postal Service as an effective
provider of prepaid card services and allow a quick entry into the prepaid card market
with relatively limited financial and operational effort.

Possibilities under the Current Postal Regulation

The Postal Accountability and Enhancement Act of 2006 (PAEA) authorizes the Postal
Service to offer new products and services to the market, only if:28

        They meet the statutory definition of a postal service: “the delivery of letter,
         printed matter, or mailable packages, including acceptance, collecting, sorting,
         transportation, or other functions ancillary thereto.”29

26
   U.S. Postal Regulatory Commission, Order Authorizing Gift Card Market Test, Order No. 721, Docket No.
MT2011-2, April 28, 2011.
27
   See Appendix D for additional details on the Postal Service past and recent experience with prepaid cards.
28
   Pub. L. No. 109-435, 120 Stat. 3198 (2006).
29
   39 U.S.C. §102(5).


                                                         16
U.S. Postal Service Office of Inspector General                                                 October 3, 2011
Digital Currency: Opportunities for the Postal Service                                         RARC-WP-12-001


        They are provided to federal agencies with the objective to improve the quality
         and the accessibility of government services to the general public.30

If the product or service does not meet those criteria, the integration of a new product,
such as prepaid cards, into the current offering is likely to be prohibited without new
legislation.

It is under these provisions that the Postal Service is testing the sale of prepaid gift
cards through its retail network. As cash equivalents, gift cards are likely to be mailed to
the recipients in envelopes or cards. The PRC considered them comparable to two
existing postal products, greeting cards and money orders, and hence consistent with
the statutory definition of postal services.31

The PRC classified another form of digital currency, Electronic International Money
Transfer Services, as a competitive postal service, considered as “both a complement
and as an extension to the paper money order postal service.”32

Therefore, if the future prepaid card services are structured                  Prepaid card services
in a way to establish a clear nexus to mail, with the                          with a clear nexus to
(ancillary) function to complement and extend existing                         mail might be
money transfer services, they might be classified as a postal                  authorized under the
service and authorized under the current postal law.                           current postal law.

Alternatively, if the Postal Service were to explore offering prepaid card services to
federal agencies to facilitate the payment of social benefits to unbanked citizens, it
might encounter fewer regulatory hurdles. The same legislative requirements that apply
to the Postal Service’s new commercial offerings do not apply to products and services
offered to the federal government. The Postal Service can even offer nonpostal
products and services to the federal government provided it can show the social benefit
of doing so.33

Regulatory implications and options are discussed in detail in Appendix B.


Implementation Strategy
The Postal Service could enhance its current offerings by integrating the functionality of
a prepaid card into the existing money transfer process. Postal customers could initiate
the money transfer process with the prepaid card and have the funds delivered in a
variety of ways: to another card, to a mobile device, to a bank account, or in cash.


30
   Id. at 59.
31
   U.S. Postal Regulatory Commission, Order Authorizing Gift Card Market Test, Order No. 721, Docket No.
MT2011-2, April 28, 2011.
32
   U.S. Postal Regulatory Commission, Review of Nonpostal Services under the Postal Accountability and
Enhancement Act, Order No. 154, Docket No. MC2008-1, December 19, 2008.
33
   39 U.S.C. § 411.


                                                         17
U.S. Postal Service Office of Inspector General                                          October 3, 2011
Digital Currency: Opportunities for the Postal Service                                  RARC-WP-12-001


If the Postal Service decides to pursue the prepaid card market opportunity, the
following actions could provide the foundation of an implementation plan:

          Partner with one or more leading providers in the money transfer and payment
           card market to share the investment and capitalize on their “know-how,”
           technology infrastructure, and network.

          Leverage the partner network and service infrastructure to set up domestic
           electronic money transfers, expand the geographical scope of international
           remittance services, and allow wire transfers across multiple channels.

          Introduce a postal prepaid card with the flexibility to accommodate a broad
           variety of payments and transfers. The postal card would bear the Postal Service
           logo and imagery to leverage the power of the Postal Service brand.

          Maximize ease of use for customers by providing additional service access
           channels such as kiosk stations and the USPS.com website that allow customers
           to access services at their convenience.

          Implement policies to minimize cost and maximize the efficiency of post office
           window operations. For example, allowing customers to access services online
           or at kiosk stations minimizes the use of post office personnel resources.

          Reach out to the unbanked audience through targeted, multilingual, large-scale
           promotional campaigns.

The Features of the Future Postal Prepaid Card

An open loop, reloadable prepaid card would ensure the broadest use and most
versatility. It would enable transactions such as cash reloading and redemption, direct
deposit on the card, Internet, mobile, and in-store payments, balance inquiry, and
domestic and international money transfers to other postal cards.

Since the Postal Service is not an eligible issuer of prepaid cards, it could offer a
cobranded card in partnership with one or more major providers. The partner(s) would
manage service on the back end while the Postal Service would be in charge of
marketing and distributing the cards to customers.

Consumers would purchase and activate the card at their postal retail outlet or through
the USPS.com website. Services such as cash loading, cash redemption, and balance
inquiries could be available at post offices, as well as at ATMs, grocery stores, and
other locations currently offering these services for similar types of cards.34 To make the
service understandable and affordable for all, the fee structure would be simple and the
cost as low as possible. Figure 6 provides additional details about the role of each
player in the prepaid card supply chain and the benefits for the cardholder.

34
     Balance inquires could also be performed online on the Postal Service’s website.


                                                           18
U.S. Postal Service Office of Inspector General                                  October 3, 2011
Digital Currency: Opportunities for the Postal Service                          RARC-WP-12-001

     Figure 6: Task Sharing in the Postal Prepaid Card Supply Chain and Cardholder Benefits




Source: OIG Analysis


New Card-based Money Transfer Services

The following section describes two new card-based service             Prepaid cards would
options. These options are not exhaustive, but representative          allow the Postal Service
of the possibilities available for the Postal Service to leverage      to develop new money
as it considers expanding into the digital currency market.            transfer services.

The Postal “Dual-Card"
A card-to-card fund transfer is a transaction between holders of the same type of
prepaid card, where the money is transferred from one card to another via an electronic
payment network. The Postal Service could offer this option in the form of a “dual-card.”
The sender of the money would purchase on USPS.com or at a retail location two
postal prepaid cards tied to the same virtual “account.”

The purchaser keeps one of the cards and mails the second to the recipient (in the
United States or in any other country), similar to a money order. Once received, the
purchaser would activate the card, releasing the funds to the recipient. Thereafter, funds
can be transferred to the second card anytime through a variety of channels (post office,
USPS website, or mobile device).



                                                         19
U.S. Postal Service Office of Inspector General                                             October 3, 2011
Digital Currency: Opportunities for the Postal Service                                     RARC-WP-12-001


The recipient could withdraw cash anywhere in the world from any ATM or partner
agent location (e.g., Bancomer ) or use the money stored on the card for online and in-
store purchases, anywhere the card network is accepted.

This solution for recurrent person-to-person money transfers would benefit unbanked
 The Postal dual-card transfers
                                     individuals, including immigrant workers who
 funds between holders of the        regularly remit money to their relatives, students
 same type of prepaid card and       who receive a regular stipend from parents, and
 benefits unbanked individuals.      low-income families in need of a cash management
                                     tool.

The dual-card can also be used individually. Used individually, the dual-card would
function as a regular open loop prepaid card, providing a greater number of unbanked
with access to the world of digital payments and online commerce that they do not
currently have. Figure 7 illustrates how the dual-card might work in practice.
                            Figure 7: The Postal “Dual-Card” Working Model




                   Twin Cards Purchased              2nd card mailed to        2nd card received
                   at USPS.com or                    recipient.                domestically or
                   postal retail locations.                                    internationally.

 Physical Track
                                                                                                Cash
                                                                                               redemption
                                                                                               at ATMs,
                                                                                               Post Offices,
                                                                                               and partner
                                                                                               retail
                                                                                               locations. In-
                                                                                               store and
                                                                                               online
                                                                                               payments.


   Virtual Track




                                          Money can be loaded on the card at
                                          any Post Office and transferred to
                                          the 2nd card at the counter, via
                                          USPS.com, or mobile phone.

Source: OIG Analysis




                                                         20
U.S. Postal Service Office of Inspector General                                                       October 3, 2011
Digital Currency: Opportunities for the Postal Service                                               RARC-WP-12-001


From the Postal Service’s perspective, the dual-card would help expand the reach and
convenience of its wire transfers, especially the international ones. Dinero Seguro, for
example, currently covers a limited number of countries and requires the Postal Service
to have a partner in the destination country to dispense the cash to the recipient. In
contrast, because the recipient can use the dual-card to access cash anywhere in the
world from any ATM where the card payment network is accepted, it could mitigate
geographical and operational barriers to the service.

The postal card would work well with mobile phones and allow the Postal Service to
leverage the rapid evolution of mobile technologies including mobile devices equipped
with chip cards that perform the same transactions as a payment card. Unbanked
customers, who often do not have access to broadband Internet, are heavy users of
smartphones as alternatives to a computer. In the future, when the mobile payment
market is more mature, the Postal Service could consider developing its reload and
money transfer system to accommodate the changing habits of the unbanked segment.

Prepaid Card Services to the Federal Government
By 2013, the federal government will have phased out the use of traditional paper
checks for paying social benefits. The Postal Service could offer prepaid card services
to federal agencies to help them provide unbanked households with an alternative to the
check in the mail.35

The U.S. Department of the Treasury (Treasury) has a           The Postal Service
leading role in actively promoting the use of electronic       could help the Treasury
payments among both the recipients of social benefits and      expand the reach of its
the federal agencies that do not yet fully distribute those    prepaid program.
benefits electronically.36 In 2008, in partnership with
MasterCard, the Treasury launched a prepaid card program, the Direct Express Debit
Card®, targeted specifically to citizens without bank accounts so they too can receive
their benefits electronically.37

With more than 18 million people expected to retire during the next five years and
10,000 people a day becoming eligible for Social Security benefits, the Treasury has an
arduous task ensuring that all federal social benefits are paid electronically.38 The




35
   Moving 11 million Social Security recipients to debit cards is expected to save the Treasury $1 billion over the next
decade. Laurent Belsie, “Government check in the mail? No, on a debit card,” The Christian Science Monitor,
March 4, 2011, http://www.csmonitor.com/Business/2011/0304/Government-check-in-the-mail-No-on-a-debit-card.
36
   A recent study conducted by the Government Accountability Office (GAO) on 45 major federal benefit programs
showed that the full digitalization of federal payments has still to be achieved. About 20 percent of programs do not
yet deliver benefits electronically and, for the remaining 80 percent, the percentage of payments that were made
electronically ranged from about 5 to 100 percent. U.S. Government Accountability Office, Electronic Payments:
Many Programs Electronically Disburse Federal Benefits, and More Outreach Could Increase Use, Report No.
GAO-08-645, June 23, 2008.
37
   https://www.godirect.gov/gpw/index.gd.
38
   U.S. Department of Treasury, “U.S. Treasury to ‘Retire’ Paper Check for New Recipients of Social Security and
Other Federal Benefits, Saving Taxpayers $1 Billion,” news release, April 26 2011.


                                                           21
U.S. Postal Service Office of Inspector General                                                       October 3, 2011
Digital Currency: Opportunities for the Postal Service                                               RARC-WP-12-001


Postal Service could play a valuable role in helping the Treasury expand the reach of its
prepaid program.39

The Postal Service retail network could provide an additional information and enrollment
                               channel, supporting the Treasury in reaching out to non-
  The Postal Service retail
                               digital citizens and residents of remote areas. For
  network provides an
  additional information and
                               example, the requests for the Direct Express Card could
  enrollment channel and       be submitted at any Postal Service retail outlet, where
  reaches non-digital          postal personnel would verify the identity of the
  citizens and remote areas. applicants, helping limit the risk of fraud or identity theft.
                               The request could then be sent to the Treasury for further
processing, or the post office could issue the card directly.40

Figure 8 illustrates the process.

Another option involves enabling the postal prepaid card to be used, in addition to the
Direct Express Card, for direct deposit of social benefits. The owner of a postal prepaid
card could activate this option simply by submitting the request to the Treasury through
a post office.41

In both cases, cardholders could use the postal retail network to reload the card,
redeem it for cash, or initiate a money transfer transaction.




39
   Expanding the adoption of prepaid cards as a tool for unbanked to receive the payment of federal benefits is part of
the goals of the Financial Management Service U.S. Department of the Treasury Strategic Plan FY 2008 – 2013.
40
   In this case, a system would be required to enable the postal personnel to check, in real time, the eligibility of the
applicant.
41
   Government-sponsored prepaid cards tend to have fewer fees than those sold in stores. The Postal Service should
consider this factor when considering the option to offer prepaid card services to the federal government.


                                                           22
U.S. Postal Service Office of Inspector General                                                    October 3, 2011
Digital Currency: Opportunities for the Postal Service                                            RARC-WP-12-001

         Figure 8: A Collaboration Model between the Postal Service and the U.S. Treasury




Source: OIG Analysis



These options highlight some examples of how to structure a possible collaboration with
the Treasury to facilitate payments to households without bank accounts. The Postal
Service could start a discussion with the Treasury about a strategy to leverage the
postal retail network to facilitate the payment and redemption of social benefits in the
form of digital currency.

An International Outlook: The Experience of Poste Italiane

Poste Italiane is an example of a foreign post without a
                                                                                      Poste Italiane is the
banking license that successfully entered the prepaid card
                                                                                      leader of the Italian
market. Poste Italiane launched, in a cobranding agreement                            prepaid card market. Its
with Visa and MasterCard, “PostePay,” a low-cost, reloadable                          PostePay prepaid card
prepaid card targeting the unbanked and underbanked (low-                             generated revenues of
income consumers and immigrant workers), employers,                                   $124 million in 2010.
government agencies, teens, and students.42

The PostePay card is available through all 14,000 postal retail outlets. It can be
reloaded at the post office (retail counters, kiosks, or proprietary ATMs), on the


42
  Poste Italiane has lower fees than Wal-Mart. It charges $7(at current exchange rates) for issuing the PostePay, but
only $1.40 for card reloading, cash redemption and card-to-card money transfer, and no monthly fee.


                                                         23
U.S. Postal Service Office of Inspector General                                                      October 3, 2011
Digital Currency: Opportunities for the Postal Service                                              RARC-WP-12-001


company’s website, and through Poste Mobile’s SIM cards.43 The card can be used for
online and in-store payments (including contactless micro-payments), for cash
withdrawal at ATMs, and for money transfers to other PostePay cards or Poste Mobile’s
phones.

With PostePay, Poste Italiane became the leader in the Italian prepaid card market
(70 percent market share) with more than 6 million cards issued in 2011. The PostePay
card generated revenues of $124 million in 2010, about 2 percent of total revenues from
financial services ($6.3 billion).44


Opportunities to Integrate Payments in the Future Postal Digital
Platform
RARC recently released two white papers exploring roles and opportunities for the
Postal Service in the digital era.45

The second paper recommends that the Postal Service develop a secure digital
platform to enable the provision of secure electronic communications and transactions
to citizens, businesses, and government. The foundation of
the future digital platform would be the e-Mailbox, a digital  The e-Mailbox would
counterpart of the physical mailbox that establishes a         link physical and
                                                               electronic addresses
permanent linkage between a physical and an electronic
                                                               and be the foundation
address and provides a unique online identity to every         of the future digital
citizen and business. The e-Mailbox, also accessible via       platform.
smartphone, would enable the secure sending, receiving,
and storage of electronic messages and documents.

The Postal Service e-Mailbox would also have electronic payment functionality. This
would allow users to perform a series of transactions, such as bill and invoice
payments, online purchases, and tax form submission and settlement, directly from the
e-Mailbox. Users would be able to safely store their payment cards or bank account
details in the e-Mailbox and pay bills or respond to online offers directly from an email
without disclosing financial information on the Internet. Invoices and payment receipts
could then be stored in the e-Mailbox folders.

In this context, the postal prepaid card would make the payment functionality offered
through the postal e-Mailbox universally accessible, including to citizens without a bank
account or credit card.


43
   Poste Mobile is the subsidiary of the Italian Post for the provision of mobile services.
44
   To provide context, the gross domestic product (GDP) of Italy was over $2 trillion in 2010, or about one-seventh the
GDP of the United States.
45
   The Postal Service Role in the Digital Age Part 1: Facts and Trends, Report No. RARC-WP-11-002, February 24,
2011, http://www.uspsoig.gov/foia_files/RARC-WP-11-002.pdf and The Postal Service Role in the Digital Age Part 2:
Expanding the Digital Platform, Report No. RARC-WP-11-003, April 19, 2011,
http://www.uspsoig.gov/foia_files/RARC-WP-11-003.pdf.


                                                          24
U.S. Postal Service Office of Inspector General                               October 3, 2011
Digital Currency: Opportunities for the Postal Service                       RARC-WP-12-001


Conclusion
The world of digital currency presents the Postal Service an opportunity to provide
electronic transactions to the financially underserved in the form of prepaid cards. The
Postal Service has the core competencies and assets to effectively expand into this
market. Further, this would align with its traditional mission and role. In addition, postal
regulation might provide the Postal Service with sufficient flexibility for proceeding under
the current regulatory framework. We encourage the Postal Service to pursue this
opportunity and develop an implementation plan aimed at enhancing its current money
transfer portfolio with prepaid card services. The offer of prepaid card-based money
transfers to the unbanked and the federal government could be the first service options
explored. Lastly, we recommend that the Postal Service integrate prepaid card payment
functionality into any future digital platform that secures electronic communications and
transactions, to make it accessible for all.




                                                         25
U.S. Postal Service Office of Inspector General                October 3, 2011
Digital Currency: Opportunities for the Postal Service        RARC-WP-12-001




                                            Appendices




                                                         26
U.S. Postal Service Office of Inspector General                                                            October 3, 2011
Digital Currency: Opportunities for the Postal Service                                                    RARC-WP-12-001



Appendix A                Major Players in the Prepaid Card and Money
                          Transfer Market


Players              Wal-Mart          Western           Money             Green             Visa                  MasterCard
                                       Union             Gram              Dot

Services             Wal-Mart          Consumer-to-      Consumer-to-      General           Credit, debit and     Credit, debit and
                     Moneycard         Consumer          Consumer          purpose           prepaid card          prepaid card
                     (with Visa).      wire transfers.   global money      reloadable        transaction           transaction
                                                         transfers.        prepaid cards     processing.           processing.
                     International     Bill payments.                      (with Visa and
                     Money                               Bill payments.    MasterCard).      International
                     Transfers.        Money                                                 cash-to-card
                                       Orders.           Money                               money transfers
                      Bill Pay and                       Orders.                             in partnership with
                     Money Orders      Prepaid                                               BBVA, Bancomer
                     (with             Cards.                                                and MoneyGram.
                     MoneyGram).

Number of            2 million         1.1 million       204.7 million     10.53 million     NA                    NA
                     prepaid cards     prepaid cards     money orders      cards (prepaid
Prepaid              issued between    in circulation    in 2010 (U.S.     and gift cards)
                                                46
Cards/Money          2006 and 2009.    in 2011.          and Puerto        activated
                                                                47
                                                         Rico).            since January
Orders Issued                                                              2009.


Number of            3,100 retail      445,000           190,000           Cards sold at     Visa ReadyLink,       NA
                     locations.        worldwide.        agents            a combined        prepaid load
Branches                                                 worldwide.        55,000 retail     network, available
                                       66,750 in the                       locations and     at 50,000 retail
                                       U.S.               61,092           online.           outlets.
                                                         money order
                                                         locations in
                                                         the U.S. and
                                                         Puerto Rico.

Revenues by          $337.6 million    $87.6 million     $74.9 million     $167 million      NA                    NA
                     attributable to   from money        from money        from payment      Visa calculates       MasterCard
Product              the partnership   orders and        orders.           cards.            revenues based        calculates
Category             with              prepaid cards.                                        on service fees       revenues based
                     MoneyGram,                          $893.2 million    101 million       and investments       on service fees
                     including         $4.38 billion     from global       from fund         rather than           and investments
                     money orders,     from              fund transfers.   transfers.        product class.        rather than
                     bill pay, and     consumer-to-                                                                product class.
                     money             consumer
                                48
                     transfers.        fund
                                       transfers.

NA= Not Available.




46
   Western Union, Second Quarter Results, 2011.
47
   Money Gram International Annual Report, 2010.
48
   Calculated as 29 percent of MoneyGram total fee and investment revenue according to 2010 Money Gram
International Annual Report.


                                                           27
U.S. Postal Service Office of Inspector General                                                 October 3, 2011
Digital Currency: Opportunities for the Postal Service                                         RARC-WP-12-001




Appendix B                Regulatory Issues and Options for the Postal Service
                          to Offer Prepaid Card-Based Money Transfers Under
                          Current Postal Regulation

The Postal Accountability and Enhancement Act of 2006 (PAEA) authorizes the Postal
Service to offer new products and services to the market, only if: 49

        They meet the statutory definition of a postal service: “the delivery of letter,
         printed matter, or mailable packages, including acceptance, collecting, sorting,
         transportation, or other functions ancillary thereto.”50

        They are provided to federal agencies with the objective to improve the quality
         and the accessibility of government services to the general public.51

If the product or service does not meet those criteria, the integration of a new product
like prepaid cards into the current offering is likely to be prohibited without new
legislation.

Statutory Definition of Postal Service

The PRC has responsibility for deciding whether a new product or service is postal or
nonpostal. The PRC applies the statutory definition of postal service: “the delivery of
letter, printed matter, or mailable packages, including acceptance, collecting, sorting,
transportation, or other functions ancillary thereto[.]”52 The PRC explained that the term
“’ancillary’ means auxiliary, subordinate, or subsidiary.”53 Ancillary services classified by
the PRC as “postal” include Address Management Services such as Move Update,
Ready Post shipping supplies, Greeting Cards, and Customized Postage.54

The PAEA includes an exception to the general rule prohibiting nonpostal products, by
permitting the continuation of nonpostal products that were offered by the Postal
Service as of January 1, 2006. Such services could be continued or “grandfathered” into
the new regime after the PRC considered two criteria: the public need for the service,
and the ability of the private sector to meet the need.




49
   Pub. L. No. 109-435, 120 Stat. 3198 (2006).
50
   39 U.S.C. §102(5).
51
   Id. at 59.
52
   39 U.S.C. §102(5).
53
   U.S. Postal Regulatory Commission, Review of Nonpostal Services under the Postal Accountability and
Enhancement Act, Order No. 154, Docket No. MC2008-1, December 19, 2008, p. 30.
54
   Id. at 31-36.


                                                         28
U.S. Postal Service Office of Inspector General                                                 October 3, 2011
Digital Currency: Opportunities for the Postal Service                                         RARC-WP-12-001


Postal Money Orders and International Wire Transfers

In Docket No. MC2008-1 Order 154, the PRC states that domestic money orders “have
long been classified as a postal service.”55 The PRC favorably cited a case that noted
that money orders are generally sent through the mail and would ordinarily be
considered postal services.

Furthermore, International Money Transfer Service (IMTS), offered commercially as
Dinero Seguro, was classified by the PRC as a postal service in the competitive
category, even when offered in electronic form.56 The PRC cited “the Postal Service’s
extensive history in providing remittances to customers, the unique role that postal
administrations may serve in this area, and that IMTS when offered through postal
networks is ancillary to hardcopy postal services.”57 The PRC also said IMTS “serves as
both a complement and as an extension to the paper money order postal service”.58 The
PRC continued “[i]t would seem needlessly short-sighted to restrict the service solely to
hardcopy form, one long recognized as a postal service, when the electronic alternative
has long been provided and serves the same function.” 59 The PRC also noted that no
participant in the classification proceeding objected to classifying IMTS as a postal
service.

Stored Value Cards and Gift Cards

Beginning in 1996, the Postal Service offered a reloadable stored value card usable for
the purchase of Postal Service products and services. The Postal Service suspended
the product at the end of FY 2003. In Docket No. MC2008-1, Order 154, the Postal
Service discussed the possibility of reintroducing stored value cards. The PRC denied
the Postal Service’s petition to have stored value cards approved as a grandfathered
nonpostal service. The PRC found that stored value cards were not eligible for
grandfathering because the service had been cancelled in 2003, and was not being
offered on January 1, 2006.60 However, the Commission specifically noted that its
finding that a stored value card was ineligible for grandfathering did not “foreclose the
possibility of the Postal Service offering a card that may, if properly supported, be
classified as a postal service.”61

In April 2011, the PRC authorized the Postal Service — Docket No. MT2011-2 Order 72
— to market test for two years the sale of one-time-use, open loop prepaid gift cards
through both its retail facilities and the website.62 The PRC concluded that gift cards
meet the definition of postal service as “they may reasonably be compared with two
existing postal services, money orders and greeting cards. Like money orders, gift cards
55
   Id at. 37.
56
   Id. at 38.
57
   Id.
58
   Id.
59
   Id.
60
   Id. at 48.
61
   Id. at 48-49 n.90.
62
   U.S. Postal Regulatory Commission, Order Authorizing Gift Card Market Test, Order No. 721, Docket No.
MT2011-2, April 28, 2011.


                                                         29
U.S. Postal Service Office of Inspector General                                                 October 3, 2011
Digital Currency: Opportunities for the Postal Service                                         RARC-WP-12-001


provide a means to convey cash as either a payment or gift. Money orders may be
redeemed at a variety of locations other than postal facilities. Open loop gift cards may
be used to purchase goods or services wherever the card is accepted,” and “[l]ike
money orders, the proposed gift cards would not be reloadable. In addition, “gift cards
are often transmitted in greeting cards.”63

Services Provided to Federal Government Agencies

The laws governing the Postal Service specifically authorize the Postal Service to enter
into agreements with executive agencies of the federal government and the United
States Government Printing Office to furnish property and services.64 Under this
authority, the Postal Service provides services for federal agencies, including
processing passport applications for the State Department, selling Migratory Bird
Hunting and Conservation stamps for the U.S. Fish and Wildlife Service, and processing
equal employment opportunity complaints. While the PRC noted that these are
nonpostal services, the Commission also noted that they are not “services” subject to
PRC regulation.65

The PRC stated that it would regulate only those activities that meet the following
definition: “Any ongoing, commercial activity offered to the public for the purpose of
financial gain. The PRC found that services offered to federal agencies under §411 are
“neither commercial in nature nor offered to the public for purposes of financial gain.”66




63
   U.S. Postal Regulatory Commission, Order Authorizing Gift Card Market Test, Order No. 721, Docket No.
MT2011-2, April 28, 2011.
64
   39 U.S.C. §411.
65
   U.S. Postal Regulatory Commission, Review of Nonpostal Services under the Postal Accountability and
Enhancement Act, Order No. 154, Docket No. MC2008-1, December 19, 2008, pp. 55-56
66
   Id. at 59.


                                                         30
U.S. Postal Service Office of Inspector General                                                   October 3, 2011
Digital Currency: Opportunities for the Postal Service                                           RARC-WP-12-001



Appendix C                The Existing Postal Service Payment Product and
                          Service Offering

Domestic Money Orders

Postal domestic money orders can be considered the equivalent of sending checks in
the mail. They can be purchased for a fee67 at any post office in the United States, or
from any rural route carrier, with cash or PIN debit or prepaid cards, up to a maximum of
$1000. All U.S. money orders may be cashed at any post office or bank. Money orders
are typically used for bill payments and person-to-person money transfers.

The trustworthiness of the Postal Service as a provider, the widespread service
accessibility, the accuracy of the payee identification process, and its efficient refund
and replacement policies in case of theft or damage,68 made it a leader in the United
States money order market with about 70 percent share.

International Money Orders and Wire Transfers

The United States is the country with the highest volume of international remittances in
the world. Over the years, the Postal Service has played an important social role in
supporting the economic and social development of the origin countries of its immigrant
communities, by providing them a convenient and efficient channel to remit funds
abroad.

The Postal Service international transfer portfolio includes both hardcopy and electronic
wire transfers. International paper-money orders are available at any U.S. post office
and cover the 25 most requested destination countries. Money orders are delivered to
the recipient by the postal operator of the destination country, and are cashable at local
banks or post offices. In 1997, in response to growing customer need for a faster and
more secure option, the Postal Service introduced Dinero Seguro, an electronic money
transfer service to Latin America. Dinero Seguro is offered in partnership with Bancomer
Transfer Service, a private sector company with a large network across Latin America,
through which the funds transferred from the United States are dispensed to the
recipient in the destination country. The service is offered in a limited number of post
offices and destination countries69 which are selected according to geo-demographic
criteria and migration trends, respectively.

Today, hardcopy money orders are declining under the pressure of electronic
alternatives, while Dinero Seguro offers limited options in terms of service access


67
   The service fee charged by the Postal Service can vary between $1.10 and $1.90, depending on the amount sent.
68
   The Postal Service guarantees a 100 percent refund on a stolen money order upon the presentation of the receipt
together with the claim for refund. Defective money orders are replaced free of charge.
69
   Countries participating in Dinero Seguro include: Argentina, Colombia, Dominican Republic, Ecuador, El Salvador,
Guatemala, Honduras, Mexico, Nicaragua, and Peru.


                                                         31
U.S. Postal Service Office of Inspector General                                                    October 3, 2011
Digital Currency: Opportunities for the Postal Service                                            RARC-WP-12-001


channels, geographical coverage and integration with other electronic money
management instruments.

Treasury and Postal Checks

Over the years, the Postal Service has not just provided its infrastructure to distribute
the government’s benefit checks through the mail, but also made available its postal
retail outlets to people without a bank account for cashing Treasury issued checks. The
Postal Service has been offering these check-cashing services free of charge, both for
the Treasury and the beneficiaries of its subsidies, as part of its social role and in the
spirit of cooperation and support of other federal agencies.70 However, the request for
the service has always been quite limited. This has mainly been the case because this
option has not been advertised, as it is offered as a general, non-mandatory practice,
depending on the post office’s availability of cash. This public service might lose part of
its importance in the future, given the plan of the Treasury to cut on mailing costs by
dispensing all its benefit in electronic form by 2013.

In addition to Treasury checks, the checks issued by the Postal Service to pay its own
unbanked employees can also be cashed at any post office free of charge. In the future,
the Postal service could give to the personnel without bank accounts the option to have
their paychecks deposited on a postal prepaid card.




70
   Title 39 of the Postal Accountability and Enhancement Act of 2006 (39 U.S.C. § 411) authorizes the Postal Service
to provide non-postal services to Executive agencies “under such terms and conditions, including reimbursability, as
the Postal Service and the head of the agency concerned shall deem appropriate.”


                                                         32
U.S. Postal Service Office of Inspector General                                                       October 3, 2011
Digital Currency: Opportunities for the Postal Service                                               RARC-WP-12-001



Appendix D                 The Postal Service Past and Recent Experience with
                           Prepaid Cards

In the last fifteen years, the Postal Service has launched a series of initiatives in the
field of prepaid cards with the objective of facilitating the payment of postal products and
services, as well as improving customer experience at the post office.

The Postal Service Stored Value Card Program

The Postal Service started a Stored Value Card Program for the first time at the end of
the 1990s. In 1996, it launched the “Liberty Cash Card,” a reloadable closed loop
prepaid card. The card was not introduced as a commercial product, but rather as a free
tool offered to postal customers to facilitate the payment of postal products and services
at postal outlets. The card could be requested and reloaded at the counter of
participating post offices. Negative cost-benefit ratio considerations, together with a
declining demand for a payment tool that could only be used within the post office
network, led the Postal Service to suspend the Liberty Cash Card in 2003.

In 1997, the Postal Service also started selling a pre-paid phone card, the “First-Class
Phone Card”, in partnership with AT&T.71 The service was terminated in 2006, affected
by the proliferation of alternative Internet-based calling solutions, customer preference
for online prepaid phone card stores, and increased competition.

Gift Cards

In April 2011, the PRC authorized the Postal Service to market test for two years
starting this June the sale of one-time-use, open loop72 prepaid gift cards through both
its retail facilities and the website.73 The pilot, conducted in partnership with American
Express, will initially involve about two thousand post offices where greeting cards are
sold, and another three thousand will be added later. The cards, available in fixed or
variable amounts,74 will be purchased and activated at the post office window by using
the existing POS system. Revenue will come from the activation fee paid by the
customer at the time of purchase.75 If the market test is successful, gift cards will
officially become a new competitive postal product.


71
   The card was sold in a limited number of post offices. It was available in fixed amounts of $10 and $20 or
reloadable with cash at the post office up to $300.
72
   Open loop cards are general purpose cards endorsed by a payment network such as Visa, MasterCard, American
Express or Discovery and can be used in-store or online everywhere that network is accepted. Closed loop cards, by
contrast, can be used only for purchases at specific merchants.
73
   U.S. Postal Regulatory Commission, Order Authorizing Gift Card Market Test, Order No. 721, Docket No.
MT2011-2, April 28, 2011.
74
   In compliance with anti-fraud and money laundering legislation, postal gift cards will be offered in fixed amounts of
$25 and $50, and in variable amounts up to a maximum of $100 per card. Limits of a $500 daily and $3000 weekly
maximum per customer will be also applied.
75
   The cost of the card will be $5, the same as the gift cards generally sold at grocery stores and big chains.


                                                           33
U.S. Postal Service Office of Inspector General                                                    October 3, 2011
Digital Currency: Opportunities for the Postal Service                                            RARC-WP-12-001


As gift cards are often mailed in cards or envelopes, they are very similar to postal
money orders.76 However, this is not the way consumers typically use this product,
considered to be more of a monetary gift rather than a payment tool in the stricter
sense. The Postal Service has positioned this product accordingly. Gift cards, together
with greeting cards, are going to be part of a broader retail strategy for providing “a
better experience for customers in the post office lobbies,”77 rather than an expansion of
its offer of payment services to unbanked customers.




76
   Given their double nature of payment tool and mailable item, “Gift cards may reasonably be compared with two
existing postal services, money orders and greeting cards. Like money orders, gift cards provide a means to convey
cash either as a payment or gift.” U.S. Postal Regulatory Commission, Order Authorizing Gift Card Market Test,
Order No. 721, Docket No. MT2011-2, April 28, 2011, p.8.
77
   Steven E. Mills, Manager of Retail Products at the U.S. Postal Service, quoted in “USPS to Sell Amex Gift Cards,”
E-Magazine, May 13, 2011, http://www.sellingprepaid.com/emagazine.php?story_id=291.


                                                         34
